 FEDERAL LABOR RELATIONS AUTHORITY
  OFFICE OF THE INSPECTOR GENERAL




      INTERNAL REVIEW



       INTERNAL REVIEW OF THE
FEDERAL LABOR RELATIONS AUTHORITY’S
     EXTERNAL AFFAIRS FUNCTION




         REPORT NO. 00-02
             May 2000
                      TABLE OF CONTENTS




Executive Summary. . . . . . . . . . . . . . . . . . . . . .i

External Affairs Review Report. . . . . . . . . . . . . . . 1

Findings and Recommendations . . . . . . . . . . . . . . . 23

Management Comments. . . . . . . . . . . . . . . . . . . . 26


Attachments

  1. External Affairs Comparison. . . . . . . . . . . . . 37

  2. Standard Interview Questions . . . . . . . . . . . . 39

  3. References . . . . . . . . . . . . . . . . . . . . .   43

  4. Interviewees (IG Copy only) . . . . . . . . . . . . . 44
                FOR OFFICIAL USE ONLY


                     Executive Summary

Background: The FLRA external affairs function became
operative in 1979, during the first of FLRA’s existence.
The function was handled in the Office of the Executive
Director, as well as by several individuals specifically
brought on board by past Chair/men who functioned as external
affairs and/or special assistants during the first eight
years of the FLRA’s existence. During the middle of the
1980’s, the presiding Chair brought on two Schedule C
Congressional Affairs personnel who assumed the majority
of external and Congressional affairs functions for
approximately 1 ½ years. When these individuals left the
agency, the external affairs function was again realigned
with the Office of the Executive Director. During Chair
McKee’s tenure, a Schedule C employee was brought on board
who assumed total responsibility for public and
Congressional affairs functions with the exception of
external publications which were handled in the Information
Resource Management Office and the Office General Counsel’s
Congressional and Technical Assistance Inquiries. During
the tenure of Chair Segal, the position of Director of
External Affairs was created in the Authority. Three
Schedule C incumbents consecutively held the position.

Discussion: The FLRA external affairs function is one of
the major assigned duties of the Director of External
Affairs. The incumbent is a Schedule C employee who performs
Congressional and White House liaison, is responsible for
the FLRA website media and publication releases and serves
as a confidential executive assistance to the Chair/man FLRA.
The extent of workload related to this function is relatively
small due to the quasi-judicial nature of the FLRA mission
and the extensive publications which are available to the
public. The FLRA has no written policy or procedures for
the conduct of external affairs with the exceptions of a
15 year old instruction on Congressional inquiries and an
Administrative Services Division Memorandum providing
procedures for publishing material in the Federal Register.
 The function of external affairs is an administrative
function which affects all organizational components. As
it is being currently administered, the function is performed
and tracked separately by each FLRA component and
coordinated, as a courtesy, with the Director of External
Affairs. There are no standardized requirements or
                FOR OFFICIAL USE ONLY
                          3
                FOR OFFICIAL USE ONLY


procedures. There is no centralized oversight or agency
tracking system. An employee in the Office of the Executive
Director performs a significant amount of man hours working
on external affairs tasks and an employee in the Affairs.
The office of General Counsel and Federal Service Impasses
Panel employees also perform external affairs tasks.




              Office of the Inspector General
                FOR OFFICIAL USE ONLY
                              4
                             FOR OFFICIAL USE ONLY


                                 Internal Review
                                      Of the
                        Federal Labor Relations Authority
                            External Affairs Function


Objective: The objective of this Internal Review is to examine the current external
affairs function, compare it with that of other small and/or regulatory and
quasi-judicial agencies and examine the processes and procedures used to
maximize the efficiency and effectiveness of the function, as it is administered in the
Federal Labor Relations Authority (FLRA).


Scope: The scope of this Internal Review includes an assessment of the FLRA
processes used to administer traditional Federal Agency external administrative
interfaces including, White House inquiries, Congressional inquiries, public inquiries,
media requests, Office of Management and Budget and General Services
Administration tasking, other Federal agency requests, public information
(publications and website) and legislative review and tracking. This review focuses
on the administrative aspects of the external affairs function, but does not address
specific execution of the political or legal aspects of the function. However, the
quasi-judicial mission of the FLRA requires constant and continuing external
interfaces by the three FLRA components.

Definition: An external affair is a broad term used in government to define oral
and written communications with entities outside of an agency. It includes all
external interfaces, both public and private sector. The term “external affairs” can
be broken down into three major functional areas: Congressional and Legislative
Affairs, Inter-Agency Governmental Affairs and Public Affairs.

Methodology: The methodology used for this review includes interviews with
External Affairs principals from seven small regulatory and quasi-judicial agencies
and a review of their external affairs procedures and policies to establish a baseline
of comparison. Discussions were held with the FLRA Authority, Office of the
General Counsel and Federal Service Impasses Panel senior managers and the
Director of External Affairs. Interviews were conducted with FLRA principals who
are involved in external affair functions, along with a review of various FLRA
external inquiries and replies, past and current FLRA processes and an evaluation
of the efficiency, effectiveness and the degree of internal management controls that
are used in the administration of the FLRA’s External Affairs Program.

FLRA External Affairs Function
                         FOR OFFICIAL USE ONLY
                                   5
                             FOR OFFICIAL USE ONLY



The FLRA external affairs functional requirements differ and are handled somewhat
differently than most other Federal agencies. To begin with, the “service” and
“product” rend from the mission of the FLRA, requires continual external interface.
The three Agency components, (the Authority, the Office of the General Counsel
and the Federal Service Impasses Panel) handle and track their own case related
Congressional and public inquiries separately. This organizational independence is
clearly supported by the Federal Service Labor-Management Relations Statute (the
Statute). The Office of Case Control in the Authority, which serves as the
Authority’s point of contact with the public, generally handles its own public inquiries,
which are almost all case related. The Office of Case Control also serves as the
Authority’s point of contact for public comments for FLRA Authority documentation
published in the Federal Register. However, the Solicitor and Deputy Solicitor are
the Federal Register Liaison Officer and Alternate Liaison Officer, respectively.
The Federal Register Authorizing Officer is the Director of Administrative Services.
The Office of the Solicitor handles the Authority’s Freedom of Information (FOIA)
and Privacy Acts inquiries, while the Office of the General Counsel and Federal
Service Impasses Panel (FSIP) generally handle their own. The Office of the
Solicitor provides legal reviews and comments on Federal and/or FLRA regulations,
when requested.

The FLRA Director of External Affairs, is currently a Schedule C employee whose
function, in addition to overseeing external affairs, is to serve as a “special executive
assistant” to the Chair/man of the FLRA and to provide political advice/liaison with
Congress and the White House, as well as oversee special FLRA projects. The
current Director, External Affairs is also involved in budget programming,
conference planning, and other special projects as requested by the Chair/man.

The current External Affairs Director stated that there has been minimal
Congressional interface and virtually no testimony since 1995, when there was a bill
proposed to merge the FLRA with the Merit Systems Protection Board. If testimony
for a Congressional Hearing were necessary now, the Director of the External
Affairs would be responsible for working with the appropriate official to produce the
testimony. The Director of External Affairs does not issue cyclic legislative reports
to general management, but has distributed the status of proposed legislation
relevant to the FLRA. Upon specific request, the Director of External Affairs will
check the status of specific legislation for interested managers. In addition, the
Director of External Affairs also works on special projects, writes magazine articles
and press releases, helps arrange agency seminars and oversees publication
production and the FLRA website. The Director of External Affairs also interfaces
with the media, issues news releases and participates in major external FLRA
functions.
                             FOR OFFICIAL USE ONLY
                                       6
                            FOR OFFICIAL USE ONLY



The FLRA does not have extensive inter-agency external interface beyond the
Federal labor-management community because of the adjudicatory nature of its
mission. As previously mentioned, there is little interaction with Congress beyond
follow up on Presidential Appointee nominations and confirmations. Also, because
of the extensive amount of public information, publications, and press releases
available through the FLRA website, there has been a minimal interface with the
media. Administrative interfaces with Federal agencies are primarily handled
directly by the Office of the Executive Director (i.e. Office of Management and
Budget, Office of Personnel Management, etc).

Because the FLRA is an adjudicatory agency, it does not normally maintain liaison
or interface with special interest groups. However, the Office of General Counsel
does engage in “outreach” with its external training sessions for Federal Agency
labor relations specialists and Union officials. The FLRA does not have
international relations or interface, except for labor-management issues involving
Federal agencies in foreign locations (i.e. Department of Defense, Department of
State, etc).

To date, neither the Director of External Affairs nor Office of the Executive Director
has issued policy or guidance for the external affairs function from an Agency level
and overarching perspective. Policy does exist delineating the process for handling
Congressional, but it is 15 years old. The Office of the General Counsel has issued
its own guidance for handling its own Congressional.

A majority of the FLRA’s external Federal and public inquiries received do not
pertain to FLRA legal or administrative responsibilities and are sent to the FLRA in
error. Depending on the clarity and complexity of the issues, these public inquiries
are either forwarded to the appropriate agency or sent back to the originator with an
appropriate letter of explanation. The Director of External Affairs estimated that
80% of the public inquiries received by the FLRA do not belong here. On the
average, the FLRA receives 10-15 White House inquiries and 12 -20 Congressional
inquiries each year. Many of these are also sent in error. Over the past year,
more than 600 public inquires were received by the Assistant to the Executive
Director, many of them misdirected and having nothing to do with the FLRA.
Because each of the individual components handles its own mission related
external affairs function, associated workload is decentralized and only estimable.
This review does not reveal excessive workload needs in the current structure, but
does reveal a duplication of effort by each component in maintaining a tracking
system with no centralized controls. FLRA written responses to external customers
that were provided by the Assistant to the Executive Director, Office of General

                            FOR OFFICIAL USE ONLY
                                      7
                            FOR OFFICIAL USE ONLY


Counsel and Federal Service Impasses Panel were appropriate and customer
oriented.

The FLRA is mentioned in a significant number of Federal publications (Federal
Yellow Book, Federal Employees News Digest, Federal Directory, Federal Staff
Directory, to name a few) which require annual updates. These updates are
provided by the Assistant to the Executive Director who serves as the official point
of contact for these publications. This individual also drafts most replies to
Authority Congressionals and media requests.

The Assistant to the Executive Director generally receives and tracks all public
general inquiries (telephone calls, e-mail and letters) sent to the Authority and
responds to them. According to the Assistant to the Executive Director, all
responses are coordinated with the Director of External Affairs, but are released
with the Assistant to the Executive Director’s signature. The Assistant to the
Executive Director also is responsible for coordinating the FLRA Annual Report to
the President, drafting the yearly Letter of Assurance, coordinating the FLRA
Bulletin and Newsletter, and drafting responses to White House inquiries. The
Assistant to the Executive Director also drafts responses to Congressional, but
these go out under the signature of the Director of External Affairs. Most Authority
public information functions are handled by the Assistant to the Executive Director in
the Office of the Executive Director and reviewed by the Director of External Affairs
prior to release. The Assistant to the Executive Director has been with the FLRA
since its creation and has extensive historical and corporate knowledge of the
FLRA. This may be a contributing factor to his significant involvement in external
affairs tasking.

The Office of the General Counsel responds to all Congressional and public
inquiries concerning the Office of the General Counsel and provides a copy of
Congressional response to the Director of External Affairs, after such responses are
issued. The FLRA Office of Information Resource Management, also part of the
Office of the Executive Director, is responsible for the technical publication of all
information that is distributed externally, prepares the bound volumes of case
decisions and maintains the FLRA Home Page. FLRA Authority’s FOIA requests
are handled by the Office of the Solicitor. The Office of the General Counsel
handles its own FOIA and Privacy Act issues. FSIP handles its own FOIA and
Privacy Act inquiries, but usually coordinates them with the Office of the Solicitor.

The current Director of External Affairs “works at the pleasure of the presidentially
appointed Chair/man.” The Director of External Affairs spends a significant amount
of time working with the Chair/man and other Presidential appointees, as needed,
on matters that require a high level of confidentiality. The Director of External
                            FOR OFFICIAL USE ONLY
                                      8
                             FOR OFFICIAL USE ONLY


Affairs also performs speech (or testimony) writing, accompaniment to external
events, tracks relevant confirmation hearings and interfaces with relevant
Congressional staff.

Position Descriptions

A review of current position descriptions of the Director of External Affairs, the
Assistant to the Executive Director and Information Resource Management Labor
Relations Specialist document the following duties of the three Authority individuals
who perform significant duties in the external affairs function.

        a. Director of External Affairs: This position is a Schedule C position,
comparable to a General Schedule 301 or 1035, Grade 15. The position
description and level of classification supports the level and expertise needed for
this position and specifically enumerates external affairs functions. The Director of
External Affairs reports directly to the Chair/man and has the official function of
managing and directing the Federal Labor Relations Authority’s Intergovernmental
Relations and Public Affairs programs, as well as overseeing and coordinating
special projects for the Chair/man. The position description also states that the
Director of External Affairs is to provide advice and assistance to the Chair/man and
other Presidential appointees on sensitive issues relating to external and political
affairs. The Director of External Affairs serves as the Agency’s liaison to the White
House and the Agency’s point of contact for FLRA Presidential appointee
nominations and confirmations. The incumbent also establishes and maintains
liaison with Members of Congress and oversees Congressional communications.
The Director of External Affairs has the responsibility for coordinating the Agency’s
responses to Congressional requests. The incumbent is also expected to form
relationships with the Legislative organizations in the Office of Management and
Budget and the General Services Administration. The incumbent is supposed to
establish effective working relationships with the media, oversee Federal Labor
Relation’s Authority press releases, publications and website content. The
incumbent, according to the position description, oversees the Chair/man’s speaking
schedule, reviews and comments on legislation affecting the Agency, and performs
special management projects for the Chair/man.

       b. The Assistant to the Executive Director’s position description contains
external affairs responsibilities, although the incumbent reports to the Executive
Director and not the Director of External Affairs. This position is also classified as a
GS-301-15. The defined duties and responsibilities of this position make the
incumbent responsible for the preparation of the Authority’s written responses to
public inquires, including referrals from the White House and Congressional offices.
 The position description also states that when required, the incumbent directs
                             FOR OFFICIAL USE ONLY
                                       9
                            FOR OFFICIAL USE ONLY


liaison activities with other Agency offices and other Federal Agencies in the
development of responses to inquires. The Assistant to the Executive Director is
also charged with responsibility for drafting/directing publications, such as Agency
newsletters and bulletins, and external reports, such as the Letter of Assurance, and
coordinating the Annual Report to the President, etc. (These are reviewed by the
Director of External Affairs prior to release).

       c. The Information Resource Management Labor Relations Specialist’s
position description assigns the incumbent the responsibility of formulating and
implementing the Authority’s legal publications and technically maintaining the
FLRA’s website. The incumbent is responsible for the technical preparation and
promulgation of the Authority’s rules and regulations, providing technical advice, and
preparing legal and other publications, including reports of case decisions, bound
volumes of Authority decisions, digests, indexes, citatory, information
announcements and guides, pamphlets, regulations, manuals and other
informational publications. While this position description does not indicate
coordination of these duties with the Office of External Affairs, the present
incumbent does routinely interface with the Director of External Affairs on
information that goes external or on the website. This employee reports directly to
the Director, Information Resource Management, who reports to the Executive
Director.

According to the Assistant to the Executive Director, significant work hours are spent
on the external affairs function (80-90 hrs/month). The same holds true for the
Information Resource Management’s Labor Relations Specialist who is responsible
for the FLRA Home Page and the production of other external information
publications. The Director of External Affairs is not a “designated supervisor” or
evaluator of personnel in other organizational entities which work to support or
execute assigned external affairs functions. While the Director of External Affairs
was asked to provide input for the performance appraisal of the Assistant to the
Executive Director in FY 1999, the same was not requested of the Information
Resource Management Labor Relations Specialist, who provides total technical
support for the external affairs function.




                            FOR OFFICIAL USE ONLY
                                      10
                                   FOR OFFICIAL USE ONLY


             Summary of External Affairs Functions Performed by other
                           FLRA Organization Entities



The various processes used by the FLRA organizational entities to administer their
external affairs function demonstrates the absence of program centralization
Agency-level policy and defined requirements.

Office of the Solicitor

The Office of the Solicitor functions as the “attorney” for the Authority. It also has
the responsibility, by delegated authority, of handling Freedom of Information (FOIA)
requests and Privacy Act requests. Since the Office of the General Counsel and
Federal Service Impasses Panel fundamentally handle their own FOIA and Privacy
Act requests, the Office of the Solicitor basically handles those sent directly to and
relevant to the Authority. The Office of the Solicitor maintains a FOIA tracking and
response system for the Authority as do the other components for their own FOIAs.
Authority FOIA responses are reviewed and signed by the Deputy Solicitor and are
generally not coordinated with the Director of External Affairs, unless a matter of
sensitivity is involved. The Office of the Solicitor also has the responsibility of
preparing the Annual FOIA Report which summarizes the FOIA actions of all of the
FLRA components. This report is sent to the Department of Justice and made part
of a consolidated report to Congress. This document is coordinated with the
Director of External Affairs and signed by the Chair/man, FLRA. Statistical input on
the number of yearly FOIA requests is provided to the Office of the Solicitor for this
report by each of the organizational elements which handle FOIA requests. FLRA
has not historically received an abundance of FOIA requests. Information provided
by the Deputy Solicitor revealed that during l999, a total of 131 FOIA requests were
processed by the Agency: 68 of these were handled by Office of the General
Counsel Regional Offices, 16 by the Office of the General Counsel, 13 by the
Federal Service Impasses Panel and 34 by the Office of the Solicitor1/ 1 .

The Office of the Solicitor also has the responsibility of providing legal reviews on
external legislation when requested (usually by the Director of External Affairs).
Substantive media inquiries and Congressional inquiries received in the Office of the
Solicitor are normally forwarded to the Director of External Affairs. Historically,


1/ Since the General Counsel has the responsibility and accountability of managing the regional
offices, the regional offices are referred to in this review as the Office of General Counsel Regional
Offices.

                                   FOR OFFICIAL USE ONLY
                                             11
                             FOR OFFICIAL USE ONLY


these have been minimal. Privacy Act Appeals, which are almost non-existent, are
forwarded directly to the Chair/man, FLRA. The Office of the Solicitor also serves
as the Agency Liaison and Certifying Officer for Federal Register Publications.
(Internal policy issued by the Administrative Services Division as Administrative
Services Memorandum #4, August 26, 1996, requires all FLRA documents that are
to be printed in the Federal Register, be staffed through the Director of External
Affairs prior to being sent to the Office of the Solicitor for publication in the Federal
Register.) In addition, the Solicitor also serves as the FLRA’s Ethics Officer and
interfaces with the Office of Government Ethics. On occasion and when necessary,
the Office of the Solicitor interfaces with White House Counsel on matters relating to
the nomination of FLRA Presidential appointees. The amount of external interface
by the Office of the Solicitor, apart from its legal mission, is minimal.

Office of the General Counsel

The Office of the General Counsel’s external interfaces is predominantly case
related telephone calls or written inquiries which are handled internally. Any
communication that will have Agency impact is forwarded to the Director of External
Affairs. The Office of the General Counsel rarely receives inquiries of an
administrative nature. Most Congressional inquiries received by the Office of the
General Counsel are related to legal cases. After the issuance of the Office of
General Counsel’s external correspondence, a copy of the Office of General
Counsel’s response is forwarded to the Director of External Affairs as a courtesy.
The Office of the General Counsel’s external correspondence is always signed by
the General Counsel. Direct telephone calls are handled by principals in the Office
of the General Counsel. The Office of the General Counsel maintains a manual log
of Congressional inquiries. Most of the interface between Congress and the Office
of the General Counsel actually relates to appropriations and case related issues,
rather than political issues.

In situations involving media inquiries, and press releases, the Office of the General
Counsel normally coordinates action with the Director of External Affairs. In
situations involving press releases, the Office of the General Counsel prepares its
own material and forwards it to the Director of External Affairs for review and
release. In the case of Congressional testimony, the Director of Operations and
Resource Management for the Office of General Counsel prepares the testimony for
the General Counsel on all management and appropriation issues and the Deputy
General Counsel prepares testimony for the General Counsel on issues related to
the operations of the Statute. In both instances, the testimony is sent to the
Director of External Affairs for review. While this procedure is more of a courtesy
than actual staffing, the Office of the General Counsel does take Director of External
Affairs’ comments into consideration. The last time General Counsel testified
                             FOR OFFICIAL USE ONLY
                                       12
                            FOR OFFICIAL USE ONLY


before Congress was in 1995, when the merger of the Federal Labor Relations
Authority with other quasi-judicial agencies was being considered. As with other
FLRA components, Congressional testimony is rare.

The Office of the General Counsel has documented guidance on how to address
Congressional correspondence. This guidance is in the form of an Office of the
General Counsel Management Memorandum (95-2) dated December 5, 1994.
Congressional inquires received by Office of the General Counsel’s Regional Office
Directors are forwarded to the Office of the General Counsel with a written draft
response. Media contact is rare at the Regional Offices. The Director of
Operations and Resource Management handles external affairs for the Office of the
General Counsel. This responsibility is noted in the incumbent’s position
description.

Federal Service Impasses Panel (FSIP)

The Federal Service Impasses Panel has very little external interface beyond its
mission related purpose. Over the last three fiscal years, the aggregate amount of
time spent on external affairs by the Executive Director, has been less than 12
hours per year. During FY 97, the Federal Service Impasses Panel received
approximately 20 external inquiries. During FY 98 and FY 99, approximately 17
inquiries per year were received and processed. These figures include 12 FOIA
requests per year from the same individual and 4 telephone conversations with the
Office of the Solicitor regarding the location of records to address FOIA inquiries.
Most of the other FSIP external affairs interfaces (public and media inquiries,
Congressional, inquiries from other Federal agencies etc.) are by telephone.

The Executive Director of the FSIP is responsible for the FSIP’s external affairs
interface. This responsibility is clearly delineated in his position description.
However, during the past three years, with the exception of relating the status of
cases to Congressional staffers (as a result of Congressional inquiries), or
referencing the FLRA website to media inquiries about cases, the FSIP has
coordinated most of its external affair matters with the Director, External Affairs.
The FSIP has had little interaction over the last few years with other Federal
Agencies regarding non-case related items. From time to time, the FSIP receives
calls from the media, generally in response to National Treasury Employees Union
(NTEU) Press releases. Unless the call merely requires a reference to the FLRA
website address, the caller is directed to the Assistant to the Executive Director if
case material is requested, or to the Director of External Affairs for other
information. While there is no clear definition of what types of external telephone
inquiries are handled by the FSIP Executive Director and what types are turned over

                            FOR OFFICIAL USE ONLY
                                      13
                              FOR OFFICIAL USE ONLY


to the Director of External Affairs, professional judgment is used and in either case,
the Executive Director of the FSIP keeps the Director of External Affairs informed.

The FSIP publishes a brochure describing its functions and a “Guide to Dispute
Resolution Procedures Used by the Federal Service Impasses Panel” which are
distributed externally. These publications were not reviewed by the Director of
External Affairs prior to release, but were reviewed by the Administrative Services
Division, in the Office of the Executive Director. The FSIP printed case decisions,
however, are reviewed by the Director of External Affairs prior to publication.

External Affairs in Various Regulatory Agencies

When compared to other small and quasi judicial agencies, the FLRA external
affairs function is executed most similar to the Office of Special Counsel. The
Office of Special Counsel also uses a Schedule C employee and has decentralized
administration of external affairs tasks. The National Labor Relations Board
employs six General Schedule employees at the Headquarters office to administer
external affairs but, like the FLRA, its field offices have an attorney administer this
function as a collateral duty. On the other side of the spectrum, the Equal
Employment Opportunity Commission maintains centralized administration for
external affairs and employs 21 General Schedule employees to handle its external
affairs program. Details on how other agencies, similar in size or structure to the
FLRA are provided below and are summarized in Attachment 1.

1. Farm Credit Administration

The Farm Credit Administration (FCA) is a regulatory agency whose mission is
regulates issues of rural America. The FCA has five regional offices. The FCA
Office of Congressional and External Affairs handles all Congressional and matters
for the regional offices. Direct Congressional are rarely received at FCA regional
offices. The FCA has approximately 319 FTEs and the Office of Congressional
and External Affairs is authorized eight positions (currently has seven people on
board.) The FACE has a comprehensive external affairs role which is explicitly
documented in FACE Administrative Policy. The Director of the Office of
Congressional and External Affairs reports to the Chair, FACE and maintains
responsibility for all external functions, including international affairs and liaison with
special interest groups. Some of the major external affairs functions of the FACE
include:

       1. Maintaining a tracking system for all incoming and external
       correspondence.

                              FOR OFFICIAL USE ONLY
                                        14
                            FOR OFFICIAL USE ONLY


      2. Reviewing all external correspondence issued by the FACE to provide for
      the uniform, consistent release and distribution of public information (with the
      exception of information relative to the Freedom of Information Act and the
      Privacy Act which are the responsibility of General Counsel).

      3. Approving all newsletters, brochures, manuals, Home Page information
      and information released to the media or available to the public (with the
      exception of oversight reports from the Office of the Inspector General).

      4. Preparing media releases, testimony and all information for Chair and
      CEO signature released in response to White House, Congressional and
      OMB, GAO tasking (information provided by appropriate functional
      managers.

      5. Monitoring relevant legislation and confirmation hearings and providing
      weekly updates to management.

      6. Attending pertinent Congressional committee and staff meeting and
      coordinating/preparing FCA management principles for Congressional
      interfaces.

Equal Employment Opportunity Commission

The Equal Employment Opportunity Commission ( EEOC ) is an quasi-judicial
agency with the mission of eradicating employment discrimination in the workplace.
The Agency consists of 2800 FTE’s and has an Office of Communications and
Legislative Affairs which is staffed with 21 FTEs. In addition, a program manager at
each of the 50 EEO field offices treats Congressional and legislative affairs as a
collateral duty. The Office of Communications and Legislative Affairs has produced
a Communications and Legislative Affairs Handbook which provides detailed
guidance for EEO programs, providing guidance for managers, as well as, its own
staff on handling communications and legislative affairs.

The EEOC’s Communications Staff communicates the Commission’s policies and
programs externally to the media and public by coordinating responses to
informational inquiries and by providing technical assistance to EEOC staff on
communication matters. The Communications staff also serves as the Agency
liaison with the news media, coordinates communications with external non-
government organizations, responds to oral and written inquiries, produces public
service announcements and conducts seminars and exhibits. It also coordinates
the production of information materials for the public and annual reports to the
President and Congress. The Communications staff also assures uniformity of
                            FOR OFFICIAL USE ONLY
                                      15
                             FOR OFFICIAL USE ONLY


policies and provides guidance to the EEO’s field offices concerning external
relations.

The Legislative Staff serves as the communications link between the EEO and
Congress and Executive Branch. It coordinates and responds to Congressional
communications, conducts legislative liaison with members of Congress,
congressional committees, congressional staff and legislative agencies. It conducts
intergovernmental liaison with Executive Branch agencies, tracks, researches and
analyzes legislation and issues and provides guidance to the Office Directors on
congressional matters.


Office of Special Counsel

The Office of Special Counsel (OSC) is an independent investigative and
prosecutorial agency with the mission of protecting Federal whistleblowers,
investigating and prosecuting prohibited personnel practices, and enforcing the
Hatch Act. The OSC consists of 90 FTEs and consists of a Headquarters located
in Washington, DC and two field offices (Oakland, CA and Dallas, TX). The OSC
has an Office of Congressional and Public Affairs which are staffed with one
Schedule C, five year appointed GS-15. The Office of Congressional and Public
Affairs was previously staffed with an additional position which was eliminated due
to downsizing. The Office Congressional and Public Affairs has no written policy
or guidance and primarily focuses on handling all Congressional inquiries, press
releases and liaisons with OMB and GAO. The review of all other external and
public information is performed by senior staff attorneys. The structure of the
Office of Congressional and Public Affairs of the OSC is the most similar to that of
the FLRA.


National Labor Relations Board

The National Labor Relations Board (NLRB) is a quasi judicial agency whose
mission is to resolve private sector labor management disputes. The NLRB is
comprised of l900 FTEs and has 55 regional offices, 33 of which are considered
Regional Offices headed by senior executives who report to their Office of General
Counsel. The external affairs function is basically divided between the Executive
Secretary, the Director of Information and the Division of Operational Management
in the Office of General Counsel. External affairs in the field offices are handled by
the Regional Directors and coordinated through the Office of General Counsel. All
three offices and the Board (five Members) respond to Congressional inquiries.
The NLRB has no written policy but requires Congressional inquiries to be
                             FOR OFFICIAL USE ONLY
                                       16
                            FOR OFFICIAL USE ONLY


responded to in 3 days. The NLRB does not maintain an automated or manual
accounting of external inquiries or responses, but they do maintain individual files
and try to coordinate with one another, but there is not 100% coordination. All
relevant external affairs and public information positions are career general
schedule positions. The Division of Information is responsible for the official
dissemination of information to the public and media and is staffed currently with six
General Schedule positions. Depending on the subject matter, sometimes the
Executive Secretary prepares documentation going to Congress, sometimes
reviews drafts created by responsible principals (such as the budget submission.)
There is no standard protocol. The Chair, NLRB requested that he sign all
documentation released to Senate, the House of Representatives and White House
inquires. In general, the Board Members are not aware of the subject matter of
Congressional inquiries unless they are directly sent to them. NLRB traditionally
based “unwritten” policy is to distance knowledge of routine Congressional from the
Board so that they maintain total independence in their case decision making. The
NLRB Congressional Affairs principals also do not get involved in legislative affairs
or routinely interact with Congressional staff to ensure that they do not elicit a
“lobbying” perception. The Office of the Solicitor is responsible for monitoring and
updating staff on relevant legislation. No one tracks confirmation hearings. While
the Executive Secretary is staffed with 5 professionals and 15 support personnel, no
one person is dedicated to Congressional affairs. The Executive Secretary
estimated that between ¼ and ½ FTE was engaged in the Congressional Affairs
function in his office.

Legal Services Corporation (LOC)

The Legal Services Corporation (LSC) is a small organization of 90 employees
whose mission is to provide legal services. It is comprised primarily of attorneys
and has no field offices. Its Office of Government Affairs is comprised of six
individuals who perform a comprehensive centralized congressional and public
affairs function. This office was created in January l998 by centralizing a formerly
bifurcated function. The LSC has external affairs administrative policy is responsible
for providing and/or reviewing all communication to Congress, the White House, the
public and the media and provides oversight over the website and all major printed
information such as manuals and brochures before they are released. They have a
manual tracking system for Congressional, White House and public inquiries. They
maintain ongoing contact with Congress, track all relevant legislation and provide
updates to the Board, Staff and Bar organizations. When required, the LSC
Government Affairs Office drafts testimony for principals testifying at Congressional
hearings. They review all external requests and replies with the exception of FOIA
inquiries which are handled by the General Counsel.

                            FOR OFFICIAL USE ONLY
                                      17
                             FOR OFFICIAL USE ONLY


Securities Exchange Commission (SEC)

The Securities Exchange Commission is an independent agency comprised of
approximately 3000 employees. The SEC maintains 11 regional offices. It’s
mission is to maintain the integrity of security markets and protect the investor. It’s
external affairs function is divided among two offices, the Office of Legislative Affairs
and the Office of Public Affairs. Its Office of Legislative Affairs is comprised of eight
General Schedule employees and is solely responsible for Congressional Affairs for
the entire agency, including the regional offices. The main functions of the Office
are to assist Congressional staff in the preparation of legislation, respond to
Congressional inquires (approximately 5-10 per week), interface with Congressional
staff, and track confirmation of Commission Members. The Office of Legislative
Affairs reviews, but does not prepare, Congressional testimony which is developed
by program managers. Program managers have the responsibility to talk with the
public concerning their programs. The SEC has almost no contact with the media.
The Office of Legislative Affairs also maintains the SEC’s website, primarily because
its Director developed it and maintained it prior to accepting her current position.

The Office of Public Affairs is staffed with nine full-time General Schedule
personnel. In addition, each regional office has an individual who is responsible for
public information interface with the media as a collateral duty. Tasking from GAO
and OMB and the SEC’s budget submission is handled exclusively by the Office of
the Executive Director. The Office of Public Affair’s primary job is to interface with
the media (provides news clips and news reports) and senior officials of the SEC.
External correspondence is reviewed by the Office of the Chair. The Office of
Public Affairs is also responsible for overseeing the visits of foreign visitors (The
Office of International Affairs produces international policy and agency liaison).
The Office of Public Affairs maintains responsibility for producing SEC publications
and quarterly newsletters, but, there is also an Office of Education which is
responsible for producing Agency brochures and educational material. The Office
of Public Affairs does not get involved in lobbying or reviewing external legislation (a
function of program managers).



Federal Maritime Commission (FMC)

The Federal Maritime Commission (FMC) is a small agency comprised of l40 full
time equivalents. The Agency has no formal external affairs program.
Congressional interface is handled as a collateral duty by a senior attorney. Public
information is handled as a collateral duty by the Office of Secretaries.

                             FOR OFFICIAL USE ONLY
                                       18
                             FOR OFFICIAL USE ONLY


Discussion

External Affairs is an important administrative function. At the FLRA, the current
External Affairs position has three major aspects. One is that the Director of
External Affairs serves as a confidential executive assistant to the FLRA Chair/man
and engages in political duties associated with White House, the Congressional and
Presidential appointee interfaces. The second aspect involves oversight of external
and public affairs activities that have to do with the FLRA as an Agency. The third
aspect is to oversee and/or participate in special projects, as requested by the
Chair/man.

In many Federal agencies, the external affairs function, in addition to Congressional
and public affairs, also includes periodic meetings with appropriate Congressional
committees and staff, liaison with the Office of Management and Budget, review of
proposed Federal legislation and legislative research/coordination. By virtue of its
quasi judicial mission, the FLRA’s external interfaces differ from that of most other
executive and regulatory Agencies. It’s White House and Congressional interface
relates mostly to its Presidential appointees and their nominations/confirmations.
A significant amount of the FLRA’s mission results are legal decisions, a matter of
public information, and are published and available to the public on the FLRA
website. FLRA’s interface with the media is rare. With the exception of
administrative interfaces with executive agencies such as the Office of Management
and Budget, Office of Personnel Management, Government Services
Administration, etc. which are normally processed through the Office of the
Executive Director, FLRA’s interfaces with Federal Agencies normally pertain to
training of labor-management principals or the investigation, dispute resolution or
adjudication of labor-management relations cases. It is important to distinguish
between the legal and administrative aspects of the FLRA’s external affairs function.

During the previous FLRA administration, at the onset of this review, the Director,
External Affairs was a Schedule C position. The incumbent reported to and was
supervised by the Chair/man, FLRA. This has not changed with the appointment of
a new Chairman (February 2000). The existing position description of the Director
of External Affairs specifically states that “the incumbent’s decisions must reflect the
sound judgment and in-depth knowledge” of the views and policies of the Chair.”
This indeed strengthens the bond between the Director, External Affairs with the
Chair/man. While this review did not reveal any significant conflicts of interest in
the way the external affairs function is administered in each FLRA component, the
function of external affairs, like financial management and personnel management,
is a function whose scope covers the full Agency and not just the Chair/man or the
Authority. While the reality is that this function is performed by different individuals
throughout the organization, the “official “ organizational placement of the external
                             FOR OFFICIAL USE ONLY
                                       19
                              FOR OFFICIAL USE ONLY


affairs function in the Office of the Chair/man gives the appearance of Agency head
and Authority control and implies the lack of organizational independence.

The actual execution and day-to-day business application of the external affairs
function “encompasses oversight” over the Authority’s, and theoretically other FLRA
components’ external affairs functions. As stated previously, the labor
management specialist in the Information Resource Division performs a majority of
the technical work associated with the Director, External Affairs responsibility of
coordinating/overseeing FLRA publications and website. This individual is
supervised and evaluated by the Director, Information Resource Management
Division without any formal input from the Director of External Affairs’, even though
much of his technical function supports external activities and the Director of
External Affairs function. As previously mentioned, the Assistant to the Executive
Director, in the Office of the Executive Director, who also performs external affairs
functions, received evaluation input and an award nomination initiated by the
Director of External Affairs for FY 99. The Director of External Affairs is not a
“designated supervisor” or manager of personnel in other FLRA organizational
entities which support or execute assigned external affairs functions. The absence
of functional policy and lack of consistency in procedures throughout the Agency
does not support standard policy and accountable execution of the function nor
standards for the evaluation of employees who perform the function.

The only existing FLRA external affairs policy, “White House and Congressional
Correspondence Control Procedures”, FLRA 1322, dated March 10, 1986, which
has not been updated, pertains to handling White House and Congressional
inquires only. It does not address the FLRA’s internal process, requirements or
procedures of handling other FLRA external affairs functions. This instruction is
currently under revision as a result of to a previous Inspector General Management
Letter noting a significant amount of outdated FLRA policy which needed review,
revision, or cancellation. It would benefit the FLRA’s administration of the external
affairs function if this revision enumerated the Agency overarching process for the
administration of external affairs.

In spite of the fact that there is a designated Director of External Affairs in the Office
of the Chairman, the FLRA administrative external affairs function is fragmented
among the Office of the Executive Director and Office of General Counsel, the
Federal Service Impasse Panel and Case Control Office and the Office of the
Solicitor and is neither executed or coordinated in a centralized or standardized
manner. The FLRA has no centralized tracking system for incoming and outgoing
correspondence. The administrative tracking of incoming and external
correspondence is performed and maintain separately by the various organizational
entities. The fact that there is no centralized external tracking system weakens
                              FOR OFFICIAL USE ONLY
                                        20
                             FOR OFFICIAL USE ONLY


Agency administrative accountability and places senior executive management in a
vulnerable position. Also, although the current vertical relationships appear to be
cooperative, the decentralized administration of the external affairs function makes
the services and output susceptible to stylistic, political and philosophical
differences.

Out of each of the three FLRA components, the Authority is the only component that
routinely coordinates all of its external affairs functions with the Director of External
Affairs. As previously mentioned, the Office of the General Counsel, the Federal
Service Impasses Panel, and the Office of the Solicitor handle most external matters
pertaining to their mission, both legal and administrative. While the Office of the
General Counsel has its own policy issued December 5, l994, directly pertaining to
its own handling of Congressional inquiries and responses, the other components
do not have their own separate policies. Sometimes documentation that will be
sent externally is coordinated with the Director of External Affairs, sometimes a
courtesy copy is sent, but it is a matter of organizational courtesy since there is no
specific FLRA policy requiring it. Generally, this review affirmed that if any inquiry is
received by a component which affects the entire Agency, it is usually forwarded to
the Director of External Affairs for action, but again, this is a matter of personal
choice, vice policy. Each of the major components keeps their own files and
correspondence tracking systems. There is no central Agency tracking system.

The current Director of External Affairs was not concerned with the decentralized
external affairs function and stated that the position’s main function was to support
the Chair/man and could not be separated from the Agency external affairs function.
 The incumbent commented that outreach and responsiveness were critical to the
Chair/man as well as to the mission of the Agency. The incumbent also stated
that it was important for the Chair/man to be able to use the Schedule C position as
desired and in a confidential manner. The incumbent did not feel that such a
relationship produced a conflict of interest when interfacing with other agency
principals. Two deputy level principals of the FLRA stated during interviews that the
current structure of the external affairs position could influence the independence of
decisions on what should be provided in response to external inquiries, but
emphasized that their own Presidential made the final decision, and that historically,
there have not been many conflicts.

The Director of the External Affairs function felt strongly that the External Affairs
function should remain where it is (Schedule C position under the Chair/man). The
Assistant to the Executive Director also supported retaining the current structure.
The majority of other managers interviewed favored the decentralized execution of
the external affairs function. This perspective is predicated on the basic facts that
the FLRA is made up of three statutory independent components and that most of
                             FOR OFFICIAL USE ONLY
                                       21
                                 FOR OFFICIAL USE ONLY


the component external interface involves mission related matters and very few
administrative external matters. While decentralization supports component
independence, it also causes duplication of work, fragmented management
accountability and additional use of resources. While the Inspector General
understands management’s preference for decentralized functions, it is difficult to
support the efficiency of such program administration in an organization that has
limited resources.

Conclusion

This review did not evidence any issue s of non-compliance. This review did reveal
that the function is decentralized and is performed differently by employees in the
Office of the Executive Director, Office of the General Counsel, Federal Service
Impasses Panel, and the Office of the Solicitor.2/ 2 Because of FLRA’s customer
orientation, a great deal of information has been made available to the public
through the FLRA website and publications. This commendable effort has
significantly reduced potential external affairs workload. Compared to other
agencies, the FLRA receives very few Congressional and media requests. A
majority of Congressional inquiries received are related to the legal missions of the
three FLRA components and are handled independently. However, statutory
independence cannot be used to explain why a significant amount of external affairs
work is performed by two individuals in the Office of the Executive Director who do
not officially report to nor are rated by the Director of External Affairs and why there
has not been overarching guidance for the conduct of external affairs at the Agency
level during the past twenty-two years.

The Office of the Executive Director is composed of all other FLRA administrative
support functions which “support” the business operations of the entire agency.
External Affairs is a current exception, even though historically it has been at various
times a working level responsibility of the Office of the Executive Director. It is the
opinion of the Inspector General that External Affairs - specifically the public affairs
aspect (vice Congressional and White House inquiries, which generally pertain to
legal cases and Presidential appointees respectively) is an Agency administrative
function and should be administered similarly to other administrative support
functions, such as procurement, personnel administration, budget, etc. The current


2/       While the Statute clearly directs legal and decisional independence among the three FLRA
components, this statutory authority does not include administrative independence. An Office of the
Solicitor Memorandum, dated October 11, 1984, subject “The Role of the Chairman of the FLRA
Regarding Budget Matters,” support this perspective, although it specifically deals with budget
administration.

                                 FOR OFFICIAL USE ONLY
                                           22
                                  FOR OFFICIAL USE ONLY


structure and execution of the function does not evidence efficient use of resources
and does not provide maximum administrative accountability for the Agency.

One other issue needs to be mentioned, although it must be emphasized that there
does not appear to be a problem at the current time. This issue deals with the use
of a Schedule C position for the external affairs function. From a political
perspective, it is understandable why a Schedule C employee might be preferred,
especially one who has established good working relationships with White House
and Congressional principals. From an Agency perspective, a corporate
perspective and familiarity with the Agency and civil service program administration
might reduce the number of support resources required to perform the function.
Another potential consideration to maximize efficiency would be to separate the
Congressional and public affairs aspects of the function. From resource and work
efficiency perspective, there may be significant value to placing the Public Affairs
function back to a General Schedule employee capacity in the Office of the
Executive Director, since it is an administrative function and is Agency-wide
oriented. There might be more Agency orientation and accountability if the “public
affairs” part of the external affairs function was performed from an administrative
perspective. It would also provide a centralized point for external administrative
tracking and accountability. 3/ 3 Such placement would also eliminate potential
conflicts between Agency administration and political influences, and acknowledge
the current reality that a significant part of the “public affairs” aspect of the external
affairs function is being performed by general schedule employees who do possess
FLRA corporate knowledge and experience.




3/     Centralized tracking can also be performed by Director of External Affairs in the current
structure.

                                  FOR OFFICIAL USE ONLY
                                            23
                                  FOR OFFICIAL USE ONLY


The suggestions above are not intended to eliminate the Schedule C position in the
Office of the Chair/man or “burrow in” the present or any future incumbent. The
Schedule C (or General Schedule, if preferred) position in the Office of the
Chair/man should be retained to provide political Congressional and White House
interface for FLRA’s Presidential Appointees and also function as a “special
Executive Assistant for the Chair/man (and even all Members of the Authority and
other Presidential appointees). This suggested restructure would not affect the
Chair/man’s knowledge of external matters because the component heads and
Executive Director report administratively to the Chair/man as well and would relay
pertinent information whether or not the current Schedule C/External Affairs position
remained as it is or was restructured. The new, restructured position, under the
Chair/man could also assume Authority-wide duties and serve as an Authority
advocate in Agency-wide programs, initiatives and budget formulation.4/ 4 Another
viable option might be to consolidate the administrative duties now performed by two
individuals in the Office of the Executive Director with the current Director of
External Affairs to strengthen Agency-level administration and accountability and
validate the documented purpose of this position.

Otherwise, the FLRA appears to be performing its administrative external affairs
functions relatively well, in spite of its fragmented structure. This review verified that
the 14 individuals performing the external affairs function were performing their work
in a timely, responsive and just as, if not more effective customer oriented manner
5/ 5 . For what appears to be a moderate amount of work, the function is being
performed in a decentralized manner by 14 different employees in the absence of
Agency policy and procedures and does not reflect an efficient process or the astute
use of resources. What would be more efficient is a standardized and more
centralized process for administering the external affairs function throughout the
Agency.




4/ During the finalization of the review, the Director, Case Control’s role as the Authority advocate
was strengthened by the Chairman, to include budget formulation, but his universe of responsibility
does not include the Offices of Executive Director and Solicitor, which are also Authority
organizations.

5/ Director, External Affairs, Director, Case Control Office, Assistant to the Executive Director,
Labor Relations Specials (IRM), Solicitor, Office of the General Counsel Deputy for Operations and
Resource Management, 7 Regional Office Directors, Federal Services Impasse Panel Executive
Director

                                  FOR OFFICIAL USE ONLY
                                            24
                            FOR OFFICIAL USE ONLY


                         Findings and Recommendations

The following provided for management consideration for improving the efficiency
and effectiveness of external affairs operations, ensuring management
accountability and the more astute use of FLRA resources.

Finding 1: The FLRA does not currently maintain a centralized Agency
tracking/accounting system for administrative external inquiries, tasking and
responses. This diminishes the Agency’s accountability for external interfaces.

Recommendation 1: Create a centralized Agency automated external
administrative correspondence tracking system to provide accountability for the
receipt and timely response to external administrative inquiries or tasking. If the
function of external affairs remains decentralized, have all components enter
Congressional and public inquiries into a common Agency-wide system maintained
by the Director of External Affairs.

Finding 2. The FLRA does not have current, relevant Agency-wide policy for the
conduct of external affairs. The current policy related to FLRA external affairs is
over 15 years old and relates only to the handling of Congressional and White
House inquiries. There is no overarching Agency guidance for handling public
affairs, external administrative correspondence, or standardized procedures for
staffing external correspondence.

Recommendation 2: The Director, External Affairs, with input from the Authority,
Office of General Counsel and Federal Service Impasses Panel, develop and
implement FLRA External Affairs policy which provides procedures for the program
administration of all aspects of the administrative external affairs function (i.e.,
Congressional and White House inquiries, administrative public inquiries, and
legislation interfaces, media, website content, etc).


The following is provided for management consideration for improving the efficiency
and effectiveness of the FLRA external affairs operations, to increase management
accountability and promote the astute use of FLRA resources. In no way does this
recommendation imply or reflect lack of compliance or performance of any individual
currently associated with the function. The recommendation is based on my
objective assessment of the current process, the amount of resources involved and
the process vulnerabilities which can be addressed for a more efficient and effective
administration of the function. I do recommend management provide serious
consideration and would support no position restructure until the current position of
Director, External Affairs is vacated.
                            FOR OFFICIAL USE ONLY
                                      25
                             FOR OFFICIAL USE ONLY



Observation:

The FLRA external affairs function is fragmented within the Authority and not
centralized under the Director of External Affairs. The FLRA mission related
aspects of external affairs are administered (statutorily sanctioned) by the three
components with different levels of coordination with the Director, External Affairs.
This result in some process and procedural redundancies, lack of centralized
accountability and an excessive use of human resources to perform the function.
While it is understood that the two primary external affairs support personnel in the
Office of the Executive Director have extensive corporate knowledge in their fields of
expertise and that this may be the underlying reason for their significant involvement
in external affairs, the current processes for the evaluation of these principals differ
because direction, supervision and accountability are not officially centralized under
the Director of External Affairs.

Recommendation:

1. In order to maintain centralized accountability and maximize the use of critical
resources wisely, the Chair/man, FLRA, consider the future restructure of the
Schedule C position in the Office of the Chair/man to:

       a. Consolidate all administrative external affairs tasking under the Director
       of External Affairs in the Office of the Chair/man, and provide an additional
       resource, if necessary, to assist the Director, External Affairs in executing a
       consolidated external affairs program.

                                          OR

       b. Provide “special assistance and political interface” at the White House
       and Congressional level for the Chair/man and other executive members of
       the Agency, providing special assistance and oversight of special projects for
       the Chair/man, and serve as an advocate for the entire Authority. This
       position could be a Schedule C position, as it is now, or restructured as a
       General Schedule position to facilitate the accumulation and retention of
       corporate knowledge, if desired. This structure would necessitate the
       creation of a Public Affairs Officer in the Office of the Executive Director, who
       would have the responsibilities of executing the Agency’s external
       correspondence tracking system and coordinating all administrative public
       interactions and interfaces for the Agency and provide Agency-wide oversight
       over public affairs.

                             FOR OFFICIAL USE ONLY
                                       26
                            FOR OFFICIAL USE ONLY


2. In order to maintain equitable treatment and evaluation of employees, the
Director, External Affairs should provide performance input regarding external affairs
administration for both the Assistant to the Executive Director and Information
Resource Management Labor Relations Specialist who performs significant amount
of work in administrating the external affairs function under the current structure.




                            FOR OFFICIAL USE ONLY
                                      27
FOR OFFICIAL USE ONLY
          28
